                           UNITED STATES OFFICE OF PERSONNEL MANAGEMENT 

                                              Washington, DC 20415 


   Office of the                             June 27, 2011
Inspector General



       MEMORANDUM FOR JOHN BERRY
                      Director

        FROM: 	                  PATRlCK E. McFARLAND
                                 Inspector General

        SUBJECT: 	               Follow-up Review of Information Systems General and Application
                                 Controls at American Postal Workers Union Health Plan (Report No.
                                 IB-47-00-11-044)

        The purpose of this memorandum is to communicate to you the findings and conclusions
        resulting from our follow-up review of information systems general and application controls
        conducted at American Postal Workers Union Health Plan (APWU). We initiated the review
        because of concerns regarding several instances of premature closure of recommendations
        stemming from information technology (IT) audits of insurance carrier systems.

        The audit of APWU was scheduled because of the high risk associated with this health plan. A
        2001 audit of this plan revealed significant weaknesses in their IT infrastructure. In 2007, we
        conducted an audit of APWU as a review of the information systems general and application
        controls as well as are-evaluation of the 2001 recommendations.

         As a result of our 2007 audit we made 46 recommendations for improvement in a wide range of
         business process and technical areas, including the overall IT security environment, business
         continuity, access controls, and application processing controls for APWU's claims adjudication
         system.

         In January 2009, we discovered that all recommendations were closed by the Healthcare and
         Insurance Office (HIO) without proper documentation that corrective action had been completed.
         In accordance with OMB Circular A-50, and by longstanding custom, my office shares
         responsibility for audit resolution by reviewing corrective actions and rendering an opinion
         regarding their relevance and effectiveness at mitigating the weaknesses identified during our
         audits. In this case, we were not fully involved in this process. Closing audit recommendations
         without following the established processes not only allows health plans to avoid correcting
         significant weaknesses, but it also wastes limited audit resources expended to identify the
         weaknesses in the first place.




           www.opm.gov 	                                                                      www.usajobs.gov
JOHN BERRY                                                                                    2


Executive Summary

The 2007 audit revealed that APWU had a very limited IT security program. We identified a
variety of missing policies and procedures along with many technical vulnerabilities in the Plan’s
IT infrastructure. The audit report detailed 46 specific weaknesses in APWU’s information
systems general and application controls. The objective of this follow-up review was to evaluate
the current status of each recommendation and determine which, if any, of the recommendations
should be re-opened.

We concluded that APWU has made substantial progress in implementing a comprehensive IT
security program, and that the Plan has fully addressed 41 of the 46 audit recommendations.
However, five recommendations have not been fully implemented. We also issued one new
recommendation resulting from the follow-up review. The unimplemented recommendations,
and the one new recommendation we are making, from our follow-up review are outlined below:

   •


   •


   •   Medical Inconsistency Controls:                   claims adjudication system processed
       and paid professional test claims with                     inconsistencies and
                         inconsistencies.

   •



   •


                  we believe this process should be automated.

   •   Special Investigations and Fraud: All components of a comprehensive fraud and abuse
       program as required by OPM Carrier Letter 2003-23 are not currently implemented at
       APWU.

Background

Audit report 1B-47-00-06-072 was issued on May 18, 2007 with 46 audit recommendations.
APWU subsequently provided the HIO with seven quarterly status reports detailing its progress
in implementing the recommendations. HIO responded to each quarterly status report with a
letter indicating which audit recommendations were being closed that quarter. On January 12,
2009, HIO sent a final closure letter to APWU indicating that all 46 recommendations were
closed. However, 22 of the recommendations were closed based solely on a description of
JOHN BERRY                                                                                3


APWU’s plans to address the weakness, even though no actual evidence was provided to
indicate that the recommendation had been addressed.

The issuance of the HIO closure letter created the possibility that APWU would halt its ongoing
efforts to remediate the weaknesses identified during the audit. As a result of this concern, we
initiated this follow-up review to determine the current status of the original audit
recommendations and reopen any that had still not been completed.

Scope and Methodology

The scope of this review was limited to the business processes where weaknesses were identified
during the original audit, including:

•   Entity-wide Security;
•   Access Controls;
•   Application Development and Change Control;
•   System Software;
•   Service Continuity; and
•   Application Controls.

In conducting this review we gathered documentation and conducted interviews related to
remediation activity APWU has completed to address our original audit recommendations.
Various laws, regulations, and industry standards were used as a guide to evaluate the APWU
control structure. This criteria includes, but is not limited to:
•   Office of Management and Budget (OMB) Circular A-130, Appendix III;
•   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
•   Information Technology Governance Institute’s CobiT: Control Objectives for Information
    and Related Technology;
•   GAO's Federal Information System Controls Audit Manual;
•   National Institute of Standards and Technology's Special Publication (NIST SP) 800-12,
    Introduction to Computer Security;
•   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
    Technology Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-41, Guidelines on Firewalls and Firewall Policy;
•   NIST SP 800-53 Revision 2, Recommended Security Controls for Federal Information
    Systems;
•   NIST SP 800-61, Computer Security Incident Handling Guide;
•   NIST SP 800-66 Revision 1, An Introductory Resource Guide for Implementing the HIPAA
    Security Rule; and
•   HIPAA Act of 1996.
JOHN BERRY                                                                                  4


Our review was not conducted in accordance with Generally Accepted Government Auditing
Standards (GAGAS). The nature and scope of the work performed was consistent with that
expected of a GAGAS audit; however, because we consider this to be a review, the
documentation, reporting, and quality control standards are not as rigorous.

Review Follow-up

In accordance with Office of Management and Budget (OMB) Circular A-50 and/or Public Law
103-355, all findings must be resolved within six months of the date of this report. In order to
ensure findings are resolved within the required six-month period, we ask that the Healthcare and
Insurance Office (HIO) respond directly to the Office of the Inspector General (OIG) within 90
days of the date of the report advising us whether they agree or disagree with the findings and
recommendations. As stated in OMB Circular A-50, where agreement is indicated, the HIO
should describe planned corrective action. If the HIO disagrees with any of the findings and
recommendations, we need them to explain the reason for the disagreement and provide any
additional documentation that would support their opinion.

Since this office exercises oversight regarding the progress of corrective actions, we also request
that the HIO provide the OIG a report within six months describing corrective action taken. If
the corrective action has not been completed, we also ask that the HIO continue to provide us
with a report on the status of corrective action every March and September thereafter until action
has been completed.
   JOHN BERRY                                                                                   5


                                                 Results

   The following sections outline the results of our follow-up review of information systems
   general and application controls at APWU.

A. Entity-wide Security

   We evaluated the adequacy of APWU’s ability to manage risk, develop security policies, assign
   security-related responsibilities, and monitor the effectiveness of various system-related controls.

   1. Enterprise Security Program

      APWU had developed a series of information technology (IT) security policies and
      procedures that comprised its enterprise security program. However, we determined that
      APWU had not adequately maintained all policies on its intranet, not all policies were being
      enforced, and individuals with significant security responsibilities were not always familiar
      with these policies.

      a. 2007 Recommendation 1
         We recommend that APWUHP update its security policies on its intranet, properly
         enforce them, and ensure that individuals with IT security responsibilities are familiar
         with these policies. A formal policy requiring periodic reviews and updates of security
         policies should also be established.

          2007 APWU Response:
          “The APWU Health Plan does maintain an Emergency Termination Checklist for all
          involuntary terminations. This checklist was provided to the Office of Inspector
          General’s auditors along with the procedures. It is APWU Health Plan Information
          System’s responsibility to complete and retain this check list and not the Human
          Resource Department which is why they may have been unfamiliar with the forms in
          question.

          The Health Plan updates our security policies and procedures on our Intranet
          application, RoboInfo. A Standard Operating Procedure was written to provide
          guidance for reviewing and updating security policies and procedures on a bi-annual
          basis, or as needed when new rules or regulations are published and to train staff
          appropriately. See Attachment 1A for the updated Standard Operating Procedures.”

          2011 Status:
          We confirmed that APWU has sufficiently updated its security policies and made them
          readily available on its intranet; this recommendation is closed.

   2. Risk Assessment

      APWU’s risk assessment methodology did not appear to identify, evaluate, or provide
      mitigating options for threats and vulnerabilities to its information systems.
JOHN BERRY                                                                                6


   a. 2007 Recommendation 2
      We recommend that APWUHP update its risk assessment policy to include steps to
      identify, evaluate, and mitigate threats and vulnerabilities to its systems.

      2007 APWU Response:
      “The APWU Health Plan is currently reviewing the NIST 800-30 ‘Risk Management
      Guide for Information Technology Systems’ and will be updating our risk assessment to
      identify, evaluate, and provide mitigation options for threats and vulnerabilities to their
      current information system and applications. It is the Health Plan’s goal to complete this
      assessment during the first quarter of 2007.”

      2011 Status:
      We confirmed that APWU has implemented an adequate risk assessment methodology;
      this recommendation is closed.

3. Incident Response

   APWU had not properly defined the organizational structure of individuals responsible for
   handling IT security incidents. In addition, employees with incident response duties received
   no formal training related to this responsibility.

   a. 2007 Recommendation 3
      We recommend APWUHP implement a formal, documented security management
      structure that outlines the responsibility and authority of APWUHP personnel charged
      with responding to IT security incidents.

      2007 APWU Response:
      “The APWU Health Plan will create and implement formal documented Security
      Management Procedures and communicate those procedures to the appropriate
      personnel.”

      2011 Status:
      We confirmed that APWU has implemented a security management structure that details
      the personnel responsible for responding to IT security incidents; this recommendation is
      closed.

   b. 2007 Recommendation 4
      We recommend APWUHP create a policy requiring adequate training for individuals
      responsible for responding to security incidents.

      2007 APWU Response:
      “The APWU Health Plan will create a policy to address the training for individuals
      responsible for responding to security incidents.”
   JOHN BERRY                                                                               7


          2011 Status:
          We confirmed that APWU has implemented an IT Training and Development policy; this
          recommendation is closed.

   4. Background Reinvestigations

      APWU conducted thorough background investigations on all individuals hired by the Plan.
      However, APWU did not conduct periodic reinvestigations of its employees.

      a. 2007 Recommendation 5
         We recommend that APWUHP implement a policy requiring periodic background
         reinvestigations on all Health Plan employees.

          2007 APWU Response:
          “The APWU Health Plan has investigated this recommendation and will implement
          criminal background reinvestigations.”

          2011 Status:
          We confirmed that APWU has implemented a periodic background reinvestigations
          policy; this recommendation is closed.

   5. Training

      Employees did not receive continuing periodic training or professional development courses
      to ensure that an employee’s skills are maintained for their job responsibilities.

      a. 2007 Recommendation 6
         We recommend that APWUHP develop and implement a formal training program that
         requires periodic training for all employees.

          2007 APWU Response:
          “Per the Security Reminders Standard Operating Policy & Procedures provided to
          auditors, Health Plan staff receive refresher training on HIPAA Security procedures
          during annually scheduled workforce benefits training each year. In addition, any
          changes that need to be immediately addressed are handled via business unit meetings or
          formalized training sessions as needed.”

          2011 Status:
          We confirmed that APWU has implemented a formal training program; this
          recommendation is closed.

B. Access Controls

   We reviewed and evaluated the effectiveness of the access control policies, procedures, and
   techniques APWU had in place to help ensure that unauthorized physical or logical access to
   sensitive resources are both minimized and actively monitored.
JOHN BERRY                                                                                 8


1. Data Center Controls

   While APWU’s data center was physically secure from the outside world, employees with no
   responsibilities related to the computer equipment in the data center were granted access. In
   addition, guests to the data center were not required to sign a log detailing their entrance to
   the data center, the purpose of their visit, and their escort. We also found that APWU had
   not implemented any video monitoring capabilities in the data center, or at its entrances.

   a. 2007 Recommendation 7
      We recommend that APWUHP limit access to the data center to management and
      maintenance personnel, and to those with responsibilities that require physical access to
      computing resources in the data center.

      2007 APWU Response:
      “The APWUHP does limit access to the Data Center and as suggested in
      Recommendation 7, have restricted access for the Insertamax Operators.”

      2011 Status:
      We confirmed that APWU has limited access to the data center; this recommendation is
      closed.

   b. 2007 Recommendation 8
      We recommend that APWUHP maintain a log of all visitors that access its data center.

      2007 APWU Response:
      “The APWU Health Plan has considered this recommendation and has determined that
      with the installation of the video monitors (see Recommendation 9 response below) in the
      computer room, limited access by the security doors and requiring outside vendors to
      sign-in and be escorted when they enter the building, that we have adequate controls for
      the data center.”

      2011 Status:
      We confirmed that APWU logs all visitor access to the data center; this recommendation
      is closed.

   c. 2007 Recommendation 9
      We recommend that APWUHP implement                                                   in its
      data center.

      2007 APWU Response:
      “The APWU Health Plan has entered into a contract with
JOHN BERRY                                                                               9


      2011 Status:
      As of May 2011 APWU has installed                                     within the data
      center. However, we observed that


      2011 Recommendation 1:
      We recommend that APWU enhance


2. Security of Check Stock and Printed Checks

   Pre-printed check stock and printed checks were stored in an unsecured location.

   a. 2007 Recommendation 10
      We recommend that APWUHP secure pre-printed check stock within its data center.

      2007 APWU Response:
      “The APWU Health Plan has reviewed the recommendation and feel we have adequate
      controls over the check stock within the data center. The check stock is stored within the
      data center, which has limited access. Only individuals authorized to enter the data
      center have access and any other individual entering the data center is escorted. The
      APWU Health Plan’s contract with the bank calls for a positive pay verification by the
      bank prior to cashing checks. The APWU Health Plan sends the bank a daily check
      register of all claim checks issued. If someone were to attempt to type their own check,
      the bank would reject the transaction. All checks are accounted for in a reconciliation
      process between Computer Operation and Accounting. Additionally, with the installation
      of the video cameras in the data center, one of these cameras will be able to monitor the
      blank preprinted check stock.”

      2011 Status:
      We confirmed that APWU has secured the pre-printed check stock within the data center;
      this recommendation is closed.

   b. 2007 Recommendation 11
      We recommend that APWUHP adjust its procedures for mailing printed checks so that
      the checks are never left unattended in an insecure area.

      2007 APWU Response:
      “The APWU Health Plan has reviewed this recommendation and determined that there
      are adequate controls in place.




                                                                           Additionally, there
JOHN BERRY                                                                              10


      is the positive pay processes with the bank and as back up, the member is mailed an
      explanation of benefits of what was paid.”

      2011 Status:
      We confirmed that APWU has adjusted its procedures to appropriately secure printed
      checks prior to mailing; this recommendation is closed.

3. Application Access Controls

   Controls to prevent unauthorized logical access to APWU’s information systems were not
   adequately implemented. Specifically, APWU did not have a corporate password policy
   implemented, which was an outstanding recommendation from 2001.

   Passwords were assigned by the system administrator and were known by at least three
   individuals before being provided to the user. Each user’s password was stored in hard copy
   by the Plan’s HIPAA specialist. Passwords were not subject to any complexity requirements
   and there were no controls implemented to prevent unlimited login attempts.

   a. 2007 Recommendation 12
      We recommend that APWUHP implement a corporate password policy that meets the
      requirements of FISCAM and NIST SP 800-14. At a minimum, the policy should
      address minimum password lengths, the use of alphanumeric and special characters,
      routine password changes and reuse of passwords.

      2007 APWU Response:
      “Currently, security and password controls are handled on the application level. Each
      application has different password requirements and do not allow for the user to choose,
      or change their password, nor do they possess the ability to lock accounts after a pre-
      determined number of failed login attempts. The Health Plan will prepare business
      requirements and functional specifications to present to the vendors for each application
      in order to put together a uniform corporate password policy that meets the requirements
      of FISCAM and NIST SP 800-14 guidelines. These business requirements and functional
      specifications will be presented to the vendor during the first quarter of 2007.”

      2011 Status:
      We confirmed that APWU has implemented a sufficient corporate password policy; this
      recommendation is closed.

   b. 2007 Recommendation 13
      We recommend that APWUHP adjust its procedures for issuing users’ initial passwords
      so that only that individual knows his/her password. This can be accomplished by
      allowing users to set their own passwords, or by forcing users to change their assigned
      password on first use.
JOHN BERRY                                                                                11


     2007 APWU Response:
     “Currently, security and password controls are handled on the application level. Each
     application has different password requirements and do not allow for the user to choose,
     or change their password, nor do they possess the ability to lock accounts after a pre-
     determined number of failed login attempts. The Health Plan will prepare business
     requirements and functional specifications to present to the vendors for each application
     in order to put together a uniform corporate password policy that meets the requirements
     of FISCAM and NIST SP 800-14 guidelines. These business requirements and functional
     specifications will be presented to the vendor during the first quarter of 2007.”

     2011 Status:
     We confirmed that APWU has implemented system settings to mandate password
     changes upon initial sign-on; this recommendation is closed.

  c. 2007 Recommendation 14
     We recommend that APWUHP improve the password controls for the applications
     discussed in this section to meet the requirements of the corporate password policy.

     2007 APWU Response:
     “Currently, security and password controls are handled on the application level. Each
     application has different password requirements and do not allow for the user to choose,
     or change their password, nor do they possess the ability to lock accounts after a pre-
     determined number of failed login attempts. The Health Plan will prepare business
     requirements and functional specifications to present to the vendors for each application
     in order to put together a uniform corporate password policy that meets the requirements
     of FISCAM and NIST SP 800-14 guidelines. These business requirements and functional
     specifications will be presented to the vendor during the first quarter of 2007.”

     2011 Status:
                                                                  . This is in direct violation
     of the Corporate Password Policy.

     2011 Recommendation 2:
     We continue to recommend that APWU improve the password controls to meet the
     standards established within the corporate password policy.

  d. 2007 Recommendation 15
     We recommend that APWUHP configure the applications to lock accounts after a pre-
     determined number of failed login attempts.

     2007 APWU Response:
     “Currently, security and password controls are handled on the application level. Each
     application has different password requirements and do not allow for the user to choose,
     or change their password, nor do they possess the ability to lock accounts after a pre-
     determined number of failed login attempts. The Health Plan will prepare business
     requirements and functional specifications to present to the vendors for each application
JOHN BERRY                                                                               12


      in order to put together a uniform corporate password policy that meets the requirements
      of FISCAM and NIST SP 800-14 guidelines. These business requirements and functional
      specifications will be presented to the vendor during the first quarter of 2007.”

      2011 Status:
      We confirmed that APWU has implemented the system changes to lock accounts after
      failed login attempts; this recommendation is closed.

4. Access Monitoring

   APWU did not adequately monitor access to three systems critical to claims processing
   activities and we found that activity is not monitored for APWU employee workstations and
   the data entry application.

   In addition, APWU’s configuration of its virtual private network (VPN) software did not
   enable the logging of user activity.

   a. 2007 Recommendation 16
      We recommend that APWUHP routinely monitor access to its information systems in
      accordance with its “Login Monitoring” policy.

      2007 APWU Response:
      “Currently, the Health Plan is unable to monitor activity or log-in attempts at the
      application level. The Health Plan will prepare business requirements and functional
      specifications to present to the vendors for each application that meets the requirements
      of the NIST 800-12 and the HIPAA Security Rule 164.308(a)(1)(ii)(D) guidelines. These
      business requirements and functional specifications will be presented to the vendors
      during the first quarter of 2007.

      2011 Status:
      We confirmed that APWU has implemented procedures that correspond with the Login
      Monitoring policy; this recommendation is closed.

   b. 2007 Recommendation 17
      We recommend that APWUHP enable the auditing capabilities of its VPN server to
      monitor remote access activity.

      2007 APWU Response:
      “The APWU Health Plan has currently requested proposals for implementing
      Firewall/VPN logging.”

      2011 Status:
      We confirmed that APWU has implemented the appropriate system changes to enable
      VPN server auditing; this recommendation is closed.
JOHN BERRY                                                                               13


5. Intrusion Detection

   APWU had not implemented any intrusion detection systems on its network or individual
   workstations.

   a. 2007 Recommendation 18
      We recommend that APWUHP implement some form of intrusion detection capability.

      2007 APWU Response:
      “The APWU Health Plan has requested proposals for implementing Intrusion
      Detection.”

      2011 Status:
      We confirmed that APWU implemented intrusion detection; this recommendation is
      closed.

6. E-mailing Personal Health Information (PHI)

   APWU’s “E-mailing PHI” policy did not provide adequate guidance for properly securing
   PHI sent over email.

   a. 2007 Recommendation 19
      We recommend that APWUHP update its data transmission policy and procedures to
      ensure that PHI transmitted over e-mail is properly encrypted.

      2007 APWU Response:
      “Although the HIPAA regulations do not require that e-mail be encrypted, the Health
      Plan continues to look at additional technology to ensure the security of electronic PHI
      when e-mail is transmitted outside the organization’s systems and applications.”

      2011 Status:
      We confirmed that APWU has updated its data transmission policy and procedures to
      address the secure transmission of PHI; this recommendation is closed.

7. Internet Usage

   APWU’s “Information Technology Policy” did not address the appropriate use of the Internet
   and acceptable web browsing practices.

   Furthermore, we determined that APWU did not utilize any Internet monitoring or filtering
   software.

   a. 2007 Recommendation 20
      We recommend that APWUHP implement an Internet use policy that describes, in detail,
      allowable web browsing practices by Plan employees.
JOHN BERRY                                                                                    14


       2007 APWU Response:
       “On December 12, 2006, the APWU Health Plan issued an Information Technology –
       Security Policy that addresses access to APWU Health Plan’s equipment, software,
       information transmission and Internet. See Attachment 20A.”

       2011 Status:
       We confirmed that APWU has implemented an Internet use policy; this recommendation
       is closed.

   b. 2007 Recommendation 21
      We recommend that APWUHP implement some form of Internet filtering software to
      enforce the Plan’s Internet use policy.

       2007 APWU Response:
       “The APWU Health Plan is currently pursuing proposals from our vendors for
       implementing Content Management/Filtering.”

       2011 Status:
       We confirmed that APWU has implemented Internet filtering software; this
       recommendation is closed.

8. Firewall Utilization

   We determined that APWU’s utilization of firewalls in its network environment could be
   improved.              contracted to perform the original configuration of the firewall ruleset,
   but no internal or third party reviews of the firewall ruleset have been conducted since its
   implementation and changes made to the ruleset are not logged.


                                   .

   a. 2007 Recommendation 22
      We recommend that APWUHP periodically review its firewall rulesets and evaluate their
      effectiveness in controlling current security threats.

       2007 APWU Response:
       “The APWUHP will monitor, log changes and periodically review rule sets.”

       2011 Status:
       We confirmed that APWU periodically reviews its firewall rulesets with regard to current
       security threats; this recommendation is closed.

   b. 2007 Recommendation 23
      We recommend that APWUHP research the costs, benefits, and feasibility of

                   .
   JOHN BERRY                                                                                  15


          2007 APWU Response:
          “The APWU Health Plan reviewed this recommendation and found that Health Plan
          users are                                                                          , the
          costs associated
                                is not a cost effective security measure at this time. The Plan will
          continue to evaluate this recommendation as other changes are made.”

          2011 Status:
          APWU has not implemented the recommended
                              and has formally accepted all associated risk. APWU stated that
          “The APWU Health Plan has reviewed this recommendation again to see if
                                                                         m is feasible. The costs
          associated with
                                is not a cost effective security measure at this time. The Health
          Plan will continue to evaluate this recommendation as other enhancements and
          modifications are made to our technical infrastructure.”

          This recommendation is closed based on APWU’s risk acceptance, but we advise APWU
          to continue to evaluate the feasibility and benefits of implementing the recommendation.

C. Application Development and Change Control

   We reviewed the APWU application development and change control methodology to determine
   whether it included the following features: a process for authorizing processing features and
   programming modifications; a change control process with testing standards and practices;
   approval methods for the implementation of newly developed or revised software; and controls
   over the use of application-related source code and program libraries.

   1. Change Control Procedures

      APWU’s “Application Change Control manual” did not reflect the current environment for
                          .

      a. 2007 Recommendation 24
         We recommend that APWUHP update the “Application Change Control Manual” to
         reflect its current operating environment. We also recommend that APWUHP ensure that
         the updated application development and change control policies and procedures are
         effectively communicated to the appropriate staff members.

          2007 APWU Response:
          “The APWU Health Plan is in the process of reviewing and updating the “Application
          Change Control manual” to reflect the current operating environment. Once the
          document has been fully updated, it will be communicated to the appropriate staff.”
   JOHN BERRY                                                                                   16


         2011 Status:
         We confirmed that APWU has sufficiently updated the change control policies and
         procedures; this recommendation is closed.

   2. Testing Modifications

      APWU’s procedures for testing the                claims processing application were not
      adequate to ensure the continuing functionality of all system components.

      a. 2007 Recommendation 25
         We recommend that APWUHP develop a testing methodology that includes test cases for
         all major functions (modules) of the claims processing system. The test plans should also
         include reusable test data with verifiable expected results. Each time the system is
         modified, APWUHP should compare its expected results to those obtained during the
         testing exercise.

         2007 APWU Response:
         “The APWU Health Plan agrees with the recommendation to institute regression testing
         into the Health Plan’s testing methodology.”

         2011 Status:
         We confirmed that APWU has developed and implemented a claims processing testing
         methodology; this recommendation is closed.

D. System Software

   We evaluated APWU’s configuration and management of the                  operating platform that
   houses the Plan’s claim processing system.

   1. Accessing System Software

      Two                software administrators would occasionally log into the        root account
      directly instead of using their personal          accounts. This practice reduced the
      accountability of administrators for their system activity, as it was impossible to tell which
      individual was logged into the root account. A better practice is for administrators to log into
      their personal account and then execute the “switch user” command to access the root
      account when needed. This approach results in an audit trail of the administrator’s activity.

      a. 2007 Recommendation 26
         We recommend that APWUHP implement a policy requiring system software
         administrators to always log into their personal accounts, and use the “switch user”
         command to perform root functions.

         2007 APWU Response:
         “The APWU Health Plan agrees that creating a policy requiring the system software
         administrators to always log into their accounts first and then use the
JOHN BERRY                                                                                17


        to perform root functions, would allow better monitoring of which users gained root
        access. APWU Health Plan is in the process of drafting this policy.”

        2011 Status:
        We confirmed that APWU has implemented the recommended system software
        administrators login policy; this recommendation is closed.

2.

     We reviewed the     system configuration file and determined that two s
                hat may not have a business justification for being utilized.

     a. 2007 Recommendation 27
        We recommend that APWUHP research the purpose of the
                 . If no business purpose can be found, we recommend that APWUHP consider
        disabling                . If a business purpose is found, we recommend that APWUHP
        research secure alternative           that can perform the same function.

        2007 APWU Response:
        “The APWU Health Plan is researching the business purpose of the
                               being active in the                          . So far, three
        production jobs have been identified requiring the                          to be active.
        The initial result of turning off the                   resulted in the failure of these
        three production jobs. We are continuing research to find additional production jobs and
        ways to limit use of                          .”

        2011 Status:
        We confirmed that APWU has researched and determined that a business necessity does
        exist for the use of these       . The risk associated with the continued use of these
        system services has been accepted by APWU; this recommendation is closed.

3. System Software Change Control

     APWU does not maintain a log of past changes to its system software.

     a. 2007 Recommendation 28
        We recommend that APWUHP maintain a log of all changes to its system software.

        2007 APWU Response:
        The APWU Health Plan will maintain a log of all changes.

        2011 Status:
        We confirmed that APWU has implemented a system change control log; this
        recommendation is closed.
   JOHN BERRY                                                                                 18


E. Service Continuity

   We reviewed APWU’s service continuity program to determine if (1) procedures were in place
   to protect information resources and minimize the risk of unplanned interruptions and (2) a plan
   existed to recover critical operations should interruptions occur.

   1. Identifying Critical Operations and Resources

      APWU had identified the systems that are critical to continuing business operations.
      However, the Plan had not adequately identified the priority in which these systems should
      be restored in a disaster recovery situation.

      a. 2007 Recommendation 29
         We recommend that APWUHP establish the priority in which each of its systems be
         restored in an emergency recovery situation.

          2007 APWU Response:
          “The Health Plan has updated its Disaster Recovery Plan to include the priority in which
          each of its systems is to be restored.”

          2011 Status:
          We confirmed that APWU has prioritized the systems to be restored in an emergency
          recovery situation; this recommendation is closed.

      b. 2007 Recommendation 30
         We recommend that APWUHP identify the specific resources that support each of its
         systems.

          2007 APWU Response:
          “The Health Plan has updated its Disaster Recovery Plan to include specific resources to
          support each of its systems.”

          2011 Status:
          We confirmed that APWU has identified the system specific resources; this
          recommendation is closed.

   2. Disaster Recovery Plan

      APWU’s disaster recovery manual contained the majority of elements suggested by NIST SP
      800-34, “Contingency Planning Guide for IT Systems.” However, several critical elements
      were missing from the manual regarding alternate team members, travel arrangements, and
      contact information.

      a. 2007 Recommendation 31
         We recommend that APWUHP update its disaster recovery plan to include the missing
         elements discussed in the section above.
   JOHN BERRY                                                                                   19


          2007 APWU Response:
          “The Health Plan is currently in the process of selecting and contracting with a new
          disaster recovery vendor. The Disaster Recovery Plan will be updated appropriately
          once the vendor has been selected and a new contract executed. In addition, the DR Plan
          will be updated with current contact information and updated team members. This will
          be completed during the first quarter of 2007.”

          2011 Status:
          We confirmed that APWU has updated its disaster recovery plan; this recommendation is
          closed.

   3. Business Continuity Testing

      APWU had implemented a business continuity plan, but it had not been tested.

      a. 2007 Recommendation 32
         We recommend that APWUHP test its business continuity plan at least annually.

          2007 APWU Response:
          “The Health Plan conducted several system recovery tests during 2006. The written
          results of the last two tests were supplied to the auditors. Once the Disaster Recovery
          Plan is updated and a new vendor is chosen during the first quarter of 2007, the Health
          Plan will conduct further system recovery tests and will plan at least one full tabletop test
          of the plan during 2007.”

          2011 Status:
          We confirmed that APWU has conducted an annual test of their business continuity plan;
          this recommendation is closed.

F. Application Controls

   We evaluated the input, processing, and output controls associated with APWU’s
   claims processing system. During this process we reviewed the policies and procedures adopted
   by APWU to help to ensure that 1) there are controls over the inception of claims data into the
   system; 2) the data received comes from the appropriate sources; and 3) the data is entered into
   the claims database correctly.

   1. Processing Controls

      A test of the             system revealed several weaknesses in APWU’s claims processing
      controls, including:

          •
JOHN BERRY                                                                                 20


     •




  a. 2007 Recommendation 33
     We recommend that APWUHP expand                        clinical edits for professional
     claims to account for the medical inconsistencies stated above. We also recommend that
     APWUHP take the necessary steps to ensure that these clinical edits are also applied to
     hospital claims.

     2007 APWU Response:
     “The Health Plan agrees we need to minimize                           s and has reported
     this problem to the claims software vendor           to correct the        issue that has
     been identified. Currently, the software editing product used               ) in the claims
     system,               does not accommodate editing for hospital claims. The Health Plan
     will take steps to investigate a product that will accommodate editing on hospital
     claims.”

     2011 Status:
     We submitted several professional test claims into APWU’s                  claims
     processing test system to evaluate the effectiveness of the system’s clinical edits. The
                 system processed and paid a

                  In addition, several hospital test claims were submitted into the system. A
     hospital test claim for                                                            did not
     encounter the expected clinical edit.


                                                                               increases the
     risk that claims can still be processed inaccurately and generate erroneous payments,
     increasing the costs to the FEHBP.

     2011 Recommendation 3:
     We continue to recommend that APWU expand                      clinical edits for
     professional and hospital claims to account for the medical inconsistencies stated above.

  b. 2007 Recommendation 34
     We recommend that APWUHP implement the proper technical controls to its claims
     processing system to ensure that providers are only paid for services for which they are
     covered.
JOHN BERRY                                                                                21


     2007 APWU Response:
     “The Health Plan has controls in place, such as claims audits and Ingenix sends a list of
     providers which are flagged in the system as fraudulent in order to ensure providers are
     only paid for services for which they are covered.”

     2011 Status:
     We submitted a professional test claim into APWU’s                claims processing test
     system to evaluate the effectiveness of the system’s                         The
                 system processed and paid a              test claim for a

                                          In addition a hospital test claim was processed and
     paid for a                                                                       These
     tests revealed the potential for APWU to erroneously pay claims for services
                                                 .

     APWU personnel explained that




     The lack of adequate                               within the              application
     increases the risk that claims can still be processed inaccurately, generating erroneous
     payments, and thereby increasing the costs to the FEHBP.

     2011 Recommendation 4:
     We continue to recommend that APWU implement the proper technical controls to its
     claims processing system to ensure that


  c. 2007 Recommendation 35
     We recommend that APWUHP implement the appropriate controls to ensure that only
     providers in the             provider file are paid, and that new providers are flagged for
     review before being added to the system.
     2007 APWU Response:
     “The APWU Health Plan will satisfy this requirement in conjunction with
     implementation of the National Provider Identifier. Only providers that have valid
     identification numbers from CMS will be considered for payment. New providers without
     a provider identification number will be flagged for review.”

     2011 Status:
     The OIG has confirmed that the recommended system modifications have been
     implemented; this recommendation is closed.
JOHN BERRY                                                                                22


  d. 2007 Recommendation 36
     We recommend that APWUHP implement the necessary technical controls to identify
     and process workers’ compensation and coordination of benefits claims in accordance
     with its FEHBP contract.

     2007 APWU Response:
     “Due to the time it takes for the Office of Workers’ Compensation to make a
     determination and the fact that the APWU Health Plan members should be afforded
     medical services for their injury, the APWU Health Plan has been reluctant to out right
     deny possible workers’ compensation claims. Instead the claims are flagged along with
     subrogation claims. The accident code used on these claims would be picked up by the
     subrogation programs to follow-up with a questionnaire and legal review.”

     2011 Status:
     The OIG has confirmed that the recommended system modifications have been
     implemented; this recommendation is closed.

  e. 2007 Recommendation 37
     We recommend that APWUHP implement the necessary technical controls to its claims
     processing system to ensure that assistant surgeon claims are processed and paid
     correctly.

     2007 APWU Response:
     “The APWU Health Plan agrees with this recommendation and will have the capability
     to handle assistant surgeon correctly when the claims system vendor, , completes
     enhancement 6.66.”

     2011 Status:
     The OIG has confirmed that the recommended system modifications have been
     implemented; this recommendation is closed.

2. Debarment

  The provider files for APWU’s                claims processing system did not contain
  information to properly identify/flag all FEHBP debarred providers. In addition, several
  FEHBP debarred providers were not found in the provider file at all, and could potentially be
  added to the system automatically without being flagged for review.

  We also submitted a series of test claims to test whether               performs the following
  actions in accordance with the benefit structure’s guidelines: 1) pay the first claim submitted
  for an enrollee receiving services from a debarred provider, 2 ) pay subsequent claims
  submitted within 15 days of the enrollee being notified for the debarment, and 3) deny claims
  received later than 15 days after the enrollee is notified of the debarment. The system denied
  claims for all three situations.
JOHN BERRY                                                                                23


  a. 2007 Recommendation 38
     We recommend that APWUHP update                      provider file with the current
     complete list of FEHBP debarred providers (including those not previously in the
     system), and continue to update the file as new debarment lists are released by the OPM
     OIG.

     2007 APWU Response:
     “This issue was corrected prior to the Office of Inspector General exit conference. The
     process is working correctly as debarment lists are issued and the Health Plan updates
     the files in the claims adjudication system,

     2011 Status:
     The OIG has confirmed that the recommended changes to the debarment process have
     been implemented; this recommendation is closed.

  b. 2007 Recommendation 39
     We recommend that APWUHP implement the necessary controls to ensure that claims
     for debarred providers are processed in accordance with the OIG Guidelines.

     2007 APWU Response:
     “The Health Plan agrees and has taken the necessary steps to comply with the OIG
     guidelines. An enhancement request (number 6.68) is currently being worked on by the
     software vendor, RAM Technologies.”

     2011 Status:
     The OIG has confirmed that the recommended system modifications have been
     implemented; this recommendation is closed.

3. OBRA90/DRG Transfers

  APWU’s claims adjudication process did not adequately address all required fields of
  OBRA90 claims sent to the CMS PRICER program. The APWU “Procedures for Data Input
  into Pricer” do not instruct claims examiners in how to address the discharge status code field
  when pricing an OBRA90 claim.

  a. 2007 Recommendation 40
     We recommend that APWUHP update its policies and procedures to ensure that claim
     data is entered in the CMS PRICER program accurately and completely. These policies
     and procedures should be in accordance with CMS and/or OPM guidance.

     Once the policies and procedures have been implemented, we recommend that APWUHP
     train the claims examiners on these updated policies and procedures.

     2007 APWU Response:
     “As a result of this audit finding, the APWU Health Plan opened a problem report with
     our software vendor, RAM. The CMS Pricer Program is integrated in the claims
JOHN BERRY                                                                                24


      processing system and the process to price a claim is only recognizing status code ‘2’
      (discharge/transferred for inpatient care), and it should recognize all discharge status
      codes.”

      2011 Status:
      The OIG has confirmed that the recommended policies and procedures have been
      implemented; this recommendation is closed.

4. OBRA 90/DRG Pre-certification Penalty

   APWU’s claims processing system did not apply the $500 pre-certification penalty on any of
   the OBRA90 test claims processed during the 2007 audit.

   a. 2007 Recommendation 41
      We recommend that APWUHP implement the necessary claims processing system
      changes to ensure that pre-certification rules are properly enforced for all FEHBP claims.

      2007 APWU Response:
      “Currently, DRG claims are priced and processed directly in                  There have
      been no situations identified where the penalty was not taken when it should have been.
      Controls are in place within the unit to escalate any claims to the Supervisor where the
      system is not applying the penalty correctly.”

      2011 Status:
      The OIG has confirmed that the recommended system modifications have been
      implemented; this recommendation is closed.

5. Medicare Part B

   APWU was incorrectly paying some OBRA90 claims in which the patient has Medicare Part
   B. Processors used the actual billed charges instead of the DRG equivalent amount when
   paying this claim, which is against OPM guidelines.

   a. 2007 Recommendation 42
      We recommend that APWUHP revise its procedures to use the DRG equivalent amount
      even if the priced amount is greater than the billed amount.

      2007 APWU Response:
      “The Health Plan agrees with the recommendation and has taken steps to correct the
      internal procedures. The Plan now uses the DRG equivalent amount that the
      Pricer calculated even if more than the charge.”

      2011 Status:
      The OIG has confirmed that the recommended system modifications have been
      implemented; this recommendation is closed.
JOHN BERRY                                                                               25


6. PRICER Input

   The           system only transmitted the last five digits of the total charges to the CMS
   PRICER program, resulting in the incorrect pricing of OBRA90 claims.

   a. 2007 Recommendation 43
      We recommend that APWUHP implement the proper technical controls to ensure that
      OBRA90 claims with total charges of $100,000 or more are priced correctly using the
      CMS PRICER program.

      2007 APWU Response:
      “When the OIG reviewed these claims, the CMS Pricer process was not integrated into
      the claims adjudication system. Now the CMS Pricer is integrated and operating
      correctly. APWUHP validated that claims with total charges of $100,000 or more are
      priced correctly using the Pricer program. We will continue to monitor pricing results
      when updates are done to the Pricer program.”

      2011 Status:
      We confirmed that the recommended system modifications have been implemented; this
      recommendation is closed.




      2011 Recommendation 5:
      We recommend that APWUHP implement the necessary technical controls to its claims
      processing system to ensure that


7. Explanation of Benefits

   APWU’s explanation of benefits (EOB) presentation for OBRA90 claims that include
   payments from other sources, such as Medicare Part B, could be confusing for subscribers.

   a. 2007 Recommendation 44
      We recommend that APWUHP revise its procedures so that non-covered benefits are not
      included on an OBRA90 claim in which the patient has Medicare Part B. Alternatively,
      APWUHP could use a remark code to state that the patient is not responsible for the non-
      covered benefit.

      2007 APWU Response:
      “The Health Plan will implement the alternative recommendation and use the remark
      code “Patient not responsible for amount over DRG pricing”.”
JOHN BERRY                                                                                26


      2011 Status:
      The OIG has confirmed that the recommended system modifications have been
      implemented; this recommendation is closed.

8. Special Investigations Unit

   APWU was not in full compliance with Carrier Letter 2003-23 “Industry Standards for Fraud
   & Abuse (F&A) Programs” as required by OPM. We did not find evidence of an anti-fraud
   Policy statement, fraud hotlines for internal and external use, or fraud awareness educational
   material for enrollees.

   a. 2007 Recommendation 45
      We recommend that APWUHP implement all components of a comprehensive fraud and
      abuse program as required by carrier letter 2003-23.

      2007 APWU Response:
      “The Health Plan has reviewed the Carrier Letter 2003-23 and agrees some of the
      elements of the carrier letter need to be enhanced and reiterated with the employees of
      the Health Plan. Written policies/procedures will be updated and published to all
      employees. Training curriculums will be revised to ensure employees have an
      understanding of how to identify fraudulent claims.”

      2011 Status:
      A separate OIG audit determined that all components of a comprehensive fraud and
      abuse program as required by carrier letter 2003-23 are not currently implemented at
      APWU. As a result of this audit, this recommendation remains open.

      2011 Recommendation 6:
      We recommend that APWU implement all components of a comprehensive fraud and
      abuse program as required by carrier letter 2003-23.

9. Sanctions Implementation Plan

   APWU was not in full compliance with the “Guidelines for Implementation of Federal
   Employees Health Benefits Program Debarment and Suspension Orders,” as required by the
   OPM OIG. Specifically, APWU’s Sanction Implementation Plan does not address
   suspension processes and procedures, or approving regulatory authority for appeals.

   a. 2007 Recommendation 46
      We recommend that APWUHP update its Sanctions Implementation Plan to meet all the
      requirements set forth by OPM. These requirements can be found on OPM’s Debarment
      website under “Guidelines for Implementation of Federal Employees Health Benefits
      Program Debarment and Suspension Orders.”
  JOHN BERRY                                                                           27


         2007 APWU Response:
         “The Health Plan has given approval to                  to enhance the
         system in order to improve our Debarment procedures. Enhancement 6.68 is attached
         for your review.”

         2011 Status:
         The OIG has confirmed that the recommended updates to the Sanction Implementation
         Plan regarding OPM’s debarment and suspension have been implemented; this
         recommendation is closed.


cc: John O’Brien
    Director, Healthcare and Insurance

    Shirley Patterson
    Assistant Director for Federal Employee Insurance Operations
